RETAIL INSTALLMENT CONTRACT/ SECURITY AGREEMENT

CT17-R

Preferred Credit, Inc. – 628 Roosevelt Road, St. Cloud, MN 56301 ZIP Line: 877-878-1079 Customer Service: 800-972-0825
IFYOU ARE MARRIED, YOU MAY APPLY FOR CREDIT SEPARATELY AS AN INDIVIDUAL.
TYPE OF CREDIT REQUESTED (CHECK APPROPRIATE BOX):
❑ INDIVIDUAL – IN YOUR NAME,RELYING ONYOUR OWN INCOME. COMPLETE BUYERINFORMATION.
❑ JOINT– WITHANOTHERPERSON. COMPLETE BUYER AND CO-BUYERINFORMATION.

Verify Customer’s
Government Issued I.D.
LastName

WE INTEND TO
APPLY FOR
JOINT CREDIT

__________________
CO-APPLICANT/
CO-BUYERINITIALS

**** IDENTIFICATION VERIFICATION ****
Applicant’sDriver’sLicense/I.D.#

State

ExpirationDate

Co-Applicant’sDriver’sLicense/I.D.#

State

ExpirationDate

FirstName

MiddleInit.

**** APPLICANT INFORMATION ****

PhysicalAddress

DateofBirth

SocialSecurity#

HomePhone #

ZIP

PrimaryIncomeType

YearsThere

❑ Military Pay Grade _____________________________
❑ Other_______________________________________

$ ________________
YearsThere

JobTitle

EmployerPhone

EmailAddress
OtherIncomeType(s)(CheckALLthatapply): Alimony, child support and maintenance payments need not be disclosed if you do not wish us to consider them in

MonthlyGrossIncome

❑ Self-Employed
❑ Retired

Employer/PrimarySourceofIncome

determining yourcredit worthiness.
❑ Full-Time
❑ Part-Time

BusinessExt. ❑ OWNS

❑ Self-Employed
❑ Retired

❑ Military Pay Grade _____________________________
❑ Other_______________________________________

}

❑ RENTS
❑ OTHER

❑ PROVIDED
Bank Accounts
Please Check ALLthat Apply:

EmployerLocation(City,State)

LastName

FirstName

MiddleInit.

PhysicalAddress

DateofBirth

❑ HOUSE
❑ MOBILE

❑ APT ❑ CONDO
❑ LIVES WITH FAMILY
❑ CHECKING

CO-APPLICANT INFORMATION: ❑ SPOUSE ❑ CO-BUYER; RELATIONSHIP: _________________________________________________________
SocialSecurity#

HomePhone #

❑ Military Pay Grade _____________________________
❑ Other_______________________________________

$ ________________

Employer/PrimarySourceofIncome

YearsThere

JobTitle

EmployerPhone

MonthlyHousingPayment

$ _____________
❑ SAVINGS

CT17-R

ZIP

YearsThere

determining your credit worthiness.
❑ Full-Time
❑ Part-Time

BusinessExt. ❑ OWNS

❑ Self-Employed
❑ Retired

❑ Military Pay Grade _____________________________
❑ Other_______________________________________

}

❑ RENTS
❑ OTHER

❑ PROVIDED
Bank Accounts
Please Check ALLthat Apply:

EmployerLocation(City,State)

$ ________________

OtherIncomeType(s)(CheckALLthatapply): Alimony, child support and maintenance payments need not be disclosed if you do not wish us to consider them in

MonthlyGrossIncome

❑ Self-Employed
❑ Retired

MonthlyGrossOtherIncome

CellPhone #

Apt./Lot# City/State

PrimaryIncomeType

❑ Full-Time
❑ Part-Time

CellPhone #

Apt./Lot# MailingAddress(IfdifferentfromPhysicalAddress)

City/State

❑ Full-Time
❑ Part-Time

PCIConsumerAccountNo.
________________
APPLICANT/
BUYERINITIALS

❑ HOUSE
❑ MOBILE

❑ APT ❑ CONDO
❑ LIVES WITH FAMILY
❑ CHECKING

MonthlyGrossOtherIncome

$ ________________
MonthlyHousingPayment

$ _____________
❑ SAVINGS

**** REFERENCES ****
(1) NameofNearestRelativeNotLivingWithYou

City/State

Relative’sPhone

Relationship

(2) NameofNearestRelativeNotLivingWithYou

City/State

Relative’sPhone

Relationship

1. By signing below you (a) apply for credit; (b) agree that, to the best of your knowledge, all information contained in the application above is complete and accurate; (c) recognize that we may obtain consumer
reports on you in connection with your application and may obtain and use subsequent reports in connection with an update, renewal or extension of credit for which you may apply, and other uses not prohibited
by law; (d) expressly authorize any third party (i.e. creditor, bank, or financial institution, employer, landlord, etc.) to release whatever information that we may request concerning you; (e) authorize us to report your
performance under this Retail Installment Contract (“Agreement”) to credit bureaus and others who may legally receive such information; (f) agree that we may monitor and record telephone calls regarding your
account for quality assurance and for other reasons not prohibited by law; (g) expressly consent and agree to us using written, electronic or verbal means to contact you as not otherwise prohibited by law including,
but not limited to, contact by manual calling methods, prerecorded or artificial voice messages, text messages, emails, and/or automatic dialing systems and do so using any email address, or telephone number
you provide, now or in the future, including a number for a mobile phone or other wireless device regardless of whether you may incur charges as a result; (h) acknowledge that the terms and conditions of this
Agreement are subject to credit approval; (i) acknowledge that Interest Charges will be imposed in amounts or rates not in excess of those permitted by law; (j) grant us a purchase money security interest in the
goods you purchase under this Agreement which are described in any order, invoice or similar document issued by the Seller (as provided below) which becomes part of this Agreement; and (k) acknowledge
that you are receiving the Retail Installment Contract: Additional Terms and Disclosures. The Additional Terms and Disclosures are in effect on the date of execution and incorporated herein.
2. Insurance, if any, included in this Retail Installment Contract does not provide coverage for personal liability and property damage caused to others.
3. THIS INSTRUMENT IS BASED UPON A HOME SOLICITATION SALE, WHICH SALE IS SUBJECT TO THE PROVISIONS OF THE HOME SOLICITATION SALES ACT. THIS INSTRUMENT IS
NOT NEGOTIABLE.
4. By signing below, you acknowledge that you have read Paragraph 9 of this Agreement and have been informed of the consequences of failing to make the first or any future deferred or
promotional installment payment in a timely manner.
NOTICE TO THE BUYER: 1. Do not sign this contract before you read it or if it contains any blank space. 2. You are entitled to a completely filled- Your initial(s) below mean that (a) you have
in copy of the contract when you sign it. 3. Under the law, you have the following rights, among others: (a) to pay off in advance the full amount read and understand the terms and conditions
due and obtain a partial refund of any unearned interest charge; (b) to redeem the property if repossessed for a default; (c) to require, under as set forth on all 5 pages of this Agreement;
certain conditions, a resale of the property if repossessed. Your signatures below mean that you have received a completely filled-in copy of this (b) you agree to the terms of this Agreement;
Agreement. Keep this Agreement to protect your legal rights.
and (c) you will pay any advances made under
this Agreement according to its terms.

X

Date

/

/

Date

/

/

Buyer’sSignature

X

Co-Buyer’sSignature
SELLER:
CompanyName:

SALE:
Consultant:

Address:

PCIClientNo.:

Seller’sInitials:

BUYERIINITIALS
PROMOTIONALCREDITPLAN(ifapplicable):

CO-BUYERIINITIALS

AUTHORIZATION FOR PREAUTHORIZED PAYMENTS

By signing below, I hereby request and authorize Preferred Credit, Inc. (PCI) to initiate entries to debit my account on the due date for the minimum monthly payment amount shown on my monthly periodic
statement of account (or the next business day if the due date falls on a weekend or holiday) and as otherwise described below. This authority is to remain in full force and effect until PCI is paid in full, or PCI has
received written notification of its termination at 628 Roosevelt Road, St. Cloud, MN 56301 or I have notified my financial institution at least three business days before the scheduled payment. In addition to the
payment amount, I request and authorize PCI to initiate entries to debit my account to collect any incidental fees or charges that may be due on the Agreement following maturity, as permitted by applicable law.
Bank/Financial Institution Name:
CheckWhichOneApplies:

❑ CHECKING ❑ SAVINGS

Name (Print):

Location (City, State, Zip):
Routing Number:

Account Number:
Signature:
Page 1 of 5

CUSTOMER PRIVACY

FACTS
Why?

WHAT DOES PREFERRED CREDIT, INC. (“PCI”) DO WITH YOUR PERSONAL INFORMATION?

Rev. 10/19

Financial companies choose how they share your personal information. Federal law gives consumers the right to limit some but not all sharing. Federal law also requires us to tell you how we
collect, share and protect your personal information. Please read this notice carefully to understand what we do.
The types of personal information we collect and share depend on the product or service your have with us. This information can include: (1) Social Security Number and income; (2) account
What?
balances and payment history; and (3) credit history and credit scores.
All financial companies need to share customers’ personal information to run their everyday business. In the section below, we list the reasons financial companies can share their customers’
How?
personal information; the reasons PCI chooses to share; and whether you can limit this sharing.
Reasons we can share your personal information
Does PCI share?
Can you limit this sharing?
For our everyday business purposes - such as to process your transactions, maintain your account(s), respond to court orders and
Yes
No
legal investigations, or report to the credit bureaus
For our marketing purposes - to offer our products and services to you
Yes
No
For joint marketing with other financial companies
No
We don’t share
For our affiliates’ everyday business purposes - information about your transactions and experiences
No
We don’t share
For our affiliates’ everyday business purposes - information about your creditworthiness
No
We don’t share
For our affiliates to market to you
No
We don’t share
For nonaffiliates to market to you
Yes
Yes
To limit our Complete the opt-out election form below.
sharing
Please note: If you are a new customer, we can begin sharing your information 30 days from the date we sent this notice. When you are no longer our customer, we continue to share your
information as described in this notice. However, you can contact us at any time to limit our sharing.
Questions? Call 320-255-9784 or go to www.preferredcredit.com

What we do

How does PCI protect my personal information? - To protect your personal information from unauthorized access and use, we use security measures that comply with federal law. These measures include
computer safeguards and secured files and buildings. We continually evaluate and access new technology for protecting your nonpublic personal information.
How does PCI collect my personal information? - We collect personal information, for example, when you (1) apply for financing or give us your contact information; (2) provide account information or pay
your bills; and (3) show your government-issued ID. We also collect your personal information from others, such as credit bureaus, affiliates, or other companies.
Why can’t I limit all sharing? - Federal law gives you the right to limit only (1) sharing for affiliates’ everyday business purposes (i.e. information about your creditworthiness); (2) affiliates from using your
information to market to you; and (3) sharing for nonaffiliates to market to you. State laws and individual companies may give you additional rights to limit sharing. See below for more on your rights under state
law.
What happens when I limit all sharing for an account I hold jointly with someone else? - Your choices will apply to everyone on your account unless you tell us otherwise.

Definitions
Affiliates - Companies related by common ownership or control. They can be financial or nonfinancial companies. PCI does not share with our affiliates

Nonaffiliates - Companies not related by common ownership or control. They can be financial and nonfinancial companies. Nonaffiliates we share with can include direct marketing companies and the retailer
named on your account.
Joint Marketing - A formal agreement between nonaffiliated financial companies that together market financial products or services to you. PCI does not jointly market

Other Important Information

We follow state law if state law provides you with additional privacy protections.
Mark if you wish to limit how we share your personal information with nonaffiliates:
Applicant Co-Applicant
❑
❑
Do not share my personal information with nonaffiliates to market their products and services to me.
Assignment by Seller: For Value Received: Seller sells and assigns this Retail Charge Agreement (the “Agreement”) to Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301, the assignee, its
successors and assigns, including all of Seller’s rights, title, and interest in this Agreement. Assignee has full power to take all legal and other actions, which Seller could have taken under this Agreement. The
undersigned acknowledges that this Assignment incorporates by reference the terms of the Finance Agreement between the undersigned and Preferred Credit, Inc. including but not limited to the representations,
warranties, liabilities, conditions and obligations of the undersigned contained therein.

Opt-out
Election

(Corporate, Firm or Trade Name of Seller)
(Owner, Officer or Firm Member)

THIS DOCUMENT IS SUBJECT TO A SECURITY INTEREST IN FAVOR OF US BANK NATIONAL ASSOCIATION.

REVISED 10-01-2019 PRINTED 00-00-2019
© 1990-2019 Preferred Credit, Inc. ALL RIGHTS RESERVED. Duplication of this document without the copyright owner’s prior written consent is strictly prohibited.

CT17-R

Page 2 of 5

RETAIL INSTALLMENT CONTRACT: ADDITIONAL TERMS AND DISCLOSURES
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT - To help the government fight the funding of terrorism and money laundering activities, Federal law requires all
financial institutions to obtain, verify, and record information that identifies each person who opens an account. What this means for you: When you open an account, we will ask for your name, address, date of
birth, and other information that will allow us to identify you. We may also ask to see your driver's license or other identifying documents.

Interest Rates and Interest Charges

Annual Percentage Rate (APR) for Purchases
How to Avoid Paying Interest
Minimum Interest Charge
For Credit Card Tips from the Consumer
Financial Protection Bureau

Fees

18%. See your account agreement for more details.

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50. See your account agreement for more details.
To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Transaction Fees
None.
Penalty Fees
The lesser of $10 or 5% of the payment. See your account agreement for more details.
• Late Payment
$20. See your account agreement for more details.
• Return Payment
How We Will Calculate Your Balance: We use a method called “daily balance (including new purchases).” See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
1. Definitions: In this Retail Installment Contract (“Agreement”): The word “Account” refers to the account that is established with the Seller, and their successors or assigns, that is the subject of this Agreement.
The words “you” and “your” refer to each individual who signs the Application for the Account, and who is authorized to use the Account. The words “we,” “us” and “our” refer to the Seller, and any assignee of the
Seller. The words “Acceptable Documentation” shall refer to Purchase Orders, phone orders, or orders from our website, so long as such orders are signed (physically or electronically) or otherwise verbally or
electronically authenticated. The words “Applicable Law” shall mean federal law and the laws of the state of Connecticut. You and we agree that these Applicable Laws apply to this Agreement. The words
“Purchase Order” refer to the document describing the type, quantity and agreed price of merchandise you buy from the Seller.
2. Account: This Agreement applies to your retail charge purchase of goods and services from us. The amount of your initial purchase from Seller will govern the amount of the initial credit limit on your Account,
which will be set at a higher amount than the cost of the goods purchased based on our expectation that you will use the Account to make additional purchases. You may make add-on purchases from the Seller
or Seller's assigns which will be evidenced by Acceptable Documentation. Acceptable Documentation must provide the cash price of the merchandise purchased. By signing future Acceptable Documentation
you agree those purchases thereby confirmed will be subject to this Agreement. You agree that add-on orders which exceed the credit limit established with your initial order are subject to credit approval. We
reserve the right to deny authorization for any requested credit limit increase.
3. Promise to Pay: In return for extending credit to you on this Account from time to time, each of you agrees to pay for all purchases any of you charge on this Account, and all other charges mentioned below,
according to the terms of this Agreement. When you sign the Application for this Account, you will be agreeing to the terms and conditions in this Agreement, which include the cost of credit disclosures required
by Applicable Law. This Agreement will not be effective until we approve your Application, and we or our assignee provides any disclosures required by the Federal Truth in Lending Act, and then, after that, only
if you or someone authorized by you sign a Purchase Order or otherwise charge a purchase to this Account.
4. Billing: You will be billed monthly for credit purchases from us, as shown on a Purchase Order signed by you (or completed at your direction), and for any previous unpaid balance as required by Applicable
Law. You will receive a monthly periodic statement of account for any month in which you have an outstanding balance of more than $1.00 or on which an Interest Charge has been imposed. Your monthly
periodic statement of account will show your new unpaid balance, any new purchases you have made since your last monthly periodic statement of account, and your Minimum Monthly Payment. Your credit
limit will also be shown on your monthly periodic statement of account.
5. Payment: You have the right to pay your entire balance in full or more than the Minimum Monthly Payment at any time. Otherwise, you agree to pay at least the Minimum Monthly Payment, which
includes Interest Charges. You must make payment in U.S. Dollars, with a draft, money order, or check drawn on a U.S. Bank or the U.S. Post Office. We may accept late payment, partial payments, or any
payments marked “payment in full,” without losing any of our rights under this Agreement or Applicable Law.
6. Interest Charges: Unless you are offered a Promotional Credit Plan as described below, and as not prohibited by Applicable Law, Interest Charges will begin to accrue upon delivery of the merchandise you
purchase. Delivery occurs upon the earlier of the date of shipment of the merchandise, or the date of hand delivery of the merchandise. No Interest Charges will be imposed on new purchases, however, if: (a)
there was no outstanding balance under your Account at the beginning of the billing period in which the purchase was made (which includes the period in which you make your initial purchase of merchandise
under this Agreement), and (b) you pay off your Account in full by the payment due date reflected in the monthly periodic statement of account for that billing period (though no payment may be due). We figure
the Interest Charge on your Account by applying the daily periodic rate to the “daily balance” of your account for each day in the billing cycle. To determine the daily balance, we take the beginning balance each
day, add any new charges posted that day, and subtract any payments and credits posted that day. This gives us the daily balance. Then, we calculate the amount of interest charged by multiplying the applicable
daily periodic rate by each daily balance on your account. Your Interest Charge for the billing cycle is the sum of the interest amounts that were charged each day during the billing cycle. Your daily periodic rate
and the corresponding Annual Percentage Rate are indicated in the chart below. The daily periodic rate will be the annual rate divided by 365 (366 in a leap year).
Applicable
Daily
Corresponding
Law
Periodic Rate
ANNUAL PERCENTAGE RATE
CT
0.0493%
18%
Notwithstanding the above, if we receive payment in full of the outstanding balance of your Account, as shown on the billing statement, within 25 days after the end of that billing period, we will not impose Interest
Charges for the current billing period.
7. Minimum Monthly Interest Charge: As not prohibited by Applicable Law, if the Interest Charge that results from the application of the above stated daily periodic rate (the “Calculated Interest Charge”), is less
than $0.50, we will impose a minimum monthly INTEREST CHARGE of $0.50.
8. Minimum Monthly Payment: You will make payments of at least the total Minimum Monthly Payment each month as required by our periodic statements of account. Your total Minimum Monthly Payment
will consist of: (1) any past due amounts, and (2) a regularly scheduled Minimum Monthly Payment. The regularly scheduled Minimum Monthly Payment will be equal to the greater of: (a) the regularly scheduled
Minimum Monthly Payment shown on your Purchase Order; (b) $25.00; or (c) 3.00% of the Account balance immediately following the first or any subsequent purchase on your Account.
9. Promotional Credit Plans: In addition to purchases that accrue Interest Charges and require monthly payments as described previously in this Agreement, as part of this Account, Promotional Credit Plans
may be offered from time to time on specific additional purchases for qualified buyers. Purchases made under these Promotional Credit Plans may have different interest charge calculations and required minimum
payments. A Promotional Credit Plan is strictly limited by its terms and the terms and conditions of the special promotion to which it relates. In addition, the benefits of a Promotional Credit Plan will expire and
all accrued Interest Charges in these plans will be added to your Account if you fail to pay the promotional balance by the end of the promotional period or you are in default for a period of 60 or
more days during the promotional period. In addition, if any required payment on your Account is not made on time, you will owe a late fee (as described in Paragraph 11 below) and we may
exercise our rights described in Paragraph 13 below. The special promotions that may be offered include:
9.a. Same as Cash Plan: If you pay the full purchase price before the expiration date of a Same as Cash Plan, as indicated on your monthly periodic statement of account, and pay the Minimum Monthly Payment
each billing period when due, no Interest Charges will be imposed on the purchase. If such payments are not made, Interest Charges from the date of delivery will be added to your Account either when
you fail to make a payment within 60 days of the due date or, at the end of a Same as Cash Plan period, calculated at the rate and in the manner described in Paragraph 6 above for regular nonpromotional purchases.
9.a.1 How Payments Are Applied When Same as Cash Plan Is In Effect: Unless otherwise required by Applicable Law, during the two billing cycles immediately preceding expiration of the Same as Cash
Plan period, any amount paid in excess of the minimum payment due will be allocated first to the balance subject to the Same as Cash Plan and any remaining portion to any other balances. We
may offer Same as Cash Plan periods of 6 months, 9 months, 12 months or of different lengths that we will announce from time to time.
10. Application of Payments: Unless otherwise required by Applicable Law, payments except down payments, shall be applied first to past due Minimum Monthly Payments, beginning with the oldest, then to
the current Minimum Monthly Payment, and then to other unpaid late fees, costs and fees arising under this Agreement.
11. Other Charges:
11.a. Late Fees: You will pay the maximum late fee allowed (which you agree we will add to the balance due on your Account) for payments not made on time, calculated as Applicable Law allows. The statutory
time period for imposition of a Late Fee is 10 days after the due date (“Due Date’) for each payment not received on the scheduled Due Date. Currently, the maximum late fee allowed is 5% of the payment that is
late or $10, whichever is less. Notwithstanding the preceding provisions, you will not be charged more than the amount of the required minimum periodic payment due immediately prior to the assessment of the
late payment fee.
11.b. Returned Check Charge: You will pay a returned check charge of $20 (which you agree we will add to the balance due on your Account) if any check, negotiable order of withdrawal, share draft, or item
Page 3 of 5

you give us for payment under the Agreement is dishonored for any reason by the bank or other institution on which it is drawn. Notwithstanding the preceding provisions, you will not be charged more than the
amount of the required minimum periodic payment due immediately prior to the date on which the payment is returned or otherwise dishonored.
11.c. Phone Payment Processing Fee: You will pay a phone payment processing fee (which you agree we will add to the balance due on your Account) for each expedited payment you make by phone. The
current phone payment processing fee is $11.75.
12. Security Agreement: You grant us a purchase money security interest in each household good purchased with this Account (“Goods”) to the full extent not prohibited by Applicable Law (including the Uniform
Commercial Code). You will, on request, take all reasonable actions requested by us to preserve and protect the Goods and our security interest in the Goods. You also agree to take all reasonable actions
requested by us to establish, determine the priority of, perfect, continue the perfection of, terminate or enforce our security interest in the Goods and our rights under this Agreement. In addition to other rights we
may have under this Agreement, if you do not make payments as agreed, this security interest allows us to take actions not prohibited by Applicable Law governing security interests in the Goods. You also agree
to keep the Goods installed at the address you provided in your credit application and to not remove or alter the Goods without our prior written consent. You may lose the Goods if you do not meet your obligations
to us under this Agreement.
13. Default: If you fail to make any payment when due, or if the prospect of your payment, performance, or our realization of collateral is significantly impaired, to the extent not prohibited by Applicable Law, and
subject to any notice required by Applicable Law, we may declare the full remaining balance immediately due and payable. We may also repossess any article of merchandise in which we retain a security interest
if we do so peacefully and the law allows it. Notwithstanding the preceding provisions, in the event of a late payment or nonpayment, we will not declare the full remaining balance immediately due and payable or
repossess any article of merchandise if, within ten days of the date on which the installment was due, we receive payment together with any late fees. If you fail to pay within 10 days of the due date, we may, at
our option, declare the full remaining balance immediately due and payable, to the extent permitted by Applicable Law. Unless we are required by Applicable Law to provide you a notice of a right to cure, you
agree that we do not have to give you notice that we intend to demand or are demanding immediate payment of all you owe. If the Account is referred to an attorney who is not our salaried employee and we bring
suit against you to collect the amount you owe and we are the prevailing party, you agree to pay our reasonable attorneys’ fees and court costs as not prohibited by Applicable Law. Attorneys’ fees for collection
will not exceed 15% of the amount due and payable under this Agreement. You also agree to pay our collection costs and costs incurred in taking the collateral, holding it, and selling it, as not prohibited by Applicable
Law.
14. Canceling or Reducing Your Credit Limit: We have the right at any time to limit or terminate the use of your Account and raise or lower your credit limit without giving you advance notice. Some purchases
will require prior authorization, in which case you may be asked to provide identification. If our authorizations system is unavailable, we may not be able to authorize a transaction, even if you have sufficient credit.
We will not be liable to you if this happens. We are not responsible for the refusal of anyone to accept or honor an addition to this Account. In addition, even if you cancel the use of your Account, you are still
responsible for any Account balances incurred by an authorized user that remain unpaid.
15. Change in Terms: You agree that we may amend the terms of this Agreement, subject to any notice required by Applicable Law. To the extent not prohibited by law, any new terms may be applied to any
balance existing on the Account at the time of the change, as well as subsequent transactions.
16. No Oral Modifications: You agree that we are not bound by any oral agreements or oral modifications to this Agreement.
17. Home Solicitation Sale Laws: Home Solicitation Sale laws govern this transaction. The Home Solicitation Sale law applicable to this Agreement is Conn. Gen. Stat. §§ 42-134 et seq.
18. Delay in Taking Action: We will not lose any of our rights under this Agreement if we delay taking action for any reason. To the extent allowed by law, we may take other action not described in this Agreement,
and by doing so will not lose our rights under this Agreement.
19. Severability: If any provision of this Agreement is found to be unenforceable, all other provisions shall remain in full force and effect.
20. Telephone Recording: You understand and agree that for our mutual protection, we may electronically record any of your telephone conversations conducted with Seller or Seller's assigns, including Preferred
Credit, Inc. (PCI), without further notice to the parties to such conversations. These telephone conversations include all conversations between you and Seller or Seller's assigns communicated via traditional
telephone wire and wireless devices such as cordless and cellular phones. You acknowledge and consent to the retention of and use of such recordings by Seller or Seller's assigns, their employees,
representatives and agents of all information and data obtained in any recorded conversation for purposes of settling disputes as well as for ongoing quality assurance programs.
21. Communications: You expressly authorize us or our agents to contact you at any phone number (including mobile, cellular/wireless, or similar devices), fax number, or email address, you provide at any time,
for any lawful purpose. The ways in which we may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded message, text message, fax, or email. Such lawful purposes
include, but are not limited to: obtaining information; account transactions or servicing-related matters; suspected fraud or identity theft; collection on the Account; and providing information about special products
and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing communications to us, to or from any such number, or email address, without
reimbursement from us.
22. Credit Investigation and Reporting: You agree that we may investigate your credit in connection with the initial extension, review, or collection of your Account. You agree that we may examine employment
and income records, verify your credit references, and report to credit reporting agencies, merchants, and other creditors the status and payment history of your Account. A negative credit report may be submitted
to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
ARBITRATION PROVISION
This Arbitration Provision significantly affects your rights in any dispute with us. Please read this Arbitration Provision carefully before you sign it.
1. EITHER YOU OR WE MAY CHOOSE TO HAVE ANY DISPUTE BETWEEN US DECIDED BY ARBITRATION AND NOT IN COURT.
2. IF A DISPUTE IS ARBITRATED, YOU AND WE WILL EACH GIVE UP OUR RIGHT TO A TRIAL BY THE COURT OR A JURY TRIAL.
3. IF A DISPUTE IS ARBITRATED, YOU WILL GIVE UP YOUR RIGHT TO PARTICIPATE AS A CLASS REPRESENTATIVE OR CLASS MEMBER ON ANY CLASS CLAIM YOU MAY HAVE
AGAINST US.
4. THE INFORMATION YOU AND WE MAY OBTAIN IN DISCOVERY FROM EACH OTHER IN ARBITRATION IS GENERALLY MORE LIMITED THAN IN A LAWSUIT.
5. OTHER RIGHTS THAT YOU AND WE WOULD HAVE IN COURT MAY NOT BE AVAILABLE IN ARBITRATION.
6. EVEN IF A DISPUTE IS ARBITRATED, WE CAN STILL REPOSSESS YOUR MERCHANDISE IF YOU DO NOT HONOR YOUR AGREEMENT AND YOU OR WE MAY SEEK PROVISIONAL
REMEDIES FROM A COURT.
Any claim or dispute, whether in contract, tort or otherwise (including the interpretation and scope of this clause and the arbitrability of any issue), between you and us or our employees, agents, successors or
assigns, which arises out of or relates in any manner to the purchase and financing of the merchandise under the Agreement or any resulting transaction or relationship (including any such relationship with third
parties who do not sign the Agreement) shall, at your or our election (or the election of any such third party), be resolved by neutral, binding arbitration and not by a court action. Any claim or dispute is to be
arbitrated on an individual basis and not as a class action, and you expressly waive any right you may have to arbitrate a class action (this is called the "class action waiver"). You may choose the
applicable rules of either the American Arbitration Association (1-800-778-7879), JAMS (800-352-5267) or any other nationally recognized arbitration organization, subject to our approval, and if the arbitration
organization selected by you is unwilling to serve, we shall select the arbitration organization. We waive the right to require you to arbitrate an individual (as opposed to a class) claim if the amount you seek to
recover, including attorneys' fees and expenses, is less than $7,500 or the maximum jurisdiction the venue of a state court providing for the resolution of small claims. You may obtain a copy of the rules of these
organizations by calling the numbers indicated or by visiting their web sites.
The arbitrators shall be attorneys or retired judges and shall be selected in accordance with the applicable rules. The arbitration award shall be in writing, but without a supporting opinion. The arbitration hearing
shall be conducted in the federal district in which you reside. If you demand arbitration first, you will pay one half of any arbitration filing fee. We will pay the rest of the filing fee, and the whole filing fee if we demand
arbitration first or if the arbitrator determines that applicable law requires us to do so or that you are unable to do so or that we must do so in order for this Arbitration Provision to be enforceable. We will pay the
arbitration costs and fees for the first day of arbitration, up to a maximum of eight hours. We will also pay any fees and charges that the arbitrator determines that we must pay in order to assure that this
Arbitration Provision is enforceable. The arbitrator shall decide who shall pay any additional costs and fees.
The arbitrator's award shall be final and binding on all parties, except in the event where either there is a “take nothing” award or the award is in excess of $100,000 either party may request a new arbitration under
the rules of the arbitration organization by a three-arbitrator panel.
This Arbitration Provision relates to a contract that evidences a transaction involving interstate commerce. Any arbitration under this Arbitration Provision shall be governed by the Federal Arbitration Act (9 U.S.C.
§§ 1 et seq.). If a court should determine that the transaction did not involve interstate commerce, the parties agree that this Arbitration Provision shall be governed by state law.
If any part of this Arbitration Provision other than the Class Action Waiver is found by a court or arbitrator to be unenforceable, the remainder shall be enforceable. This Arbitration Provision shall survive the
termination of any contractual agreement between you and us, whether by default or repayment in full.
You may elect to opt-out of the arbitration provision only by notifying us in writing at Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301 within 30 days from the date in which you signed this
Agreement, and including in the notice your name, address and account number and a clear statement that you do not wish to resolve disputes through arbitration. No one else may sign the rejection notice for
you. Your rejection notice also must not be sent with any other correspondence. Rejection of arbitration will not affect your other rights or responsibilities under this Agreement. If you reject arbitration, neither you
nor we will be subject to the arbitration provisions for this Agreement. Rejection of arbitration for this Agreement will not constitute rejection of any prior or future arbitration provision between you and us.
Page 4 of 5

Your Billing Rights. Keep This Notice For Future Use. This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on the amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with the applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that
you are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases:
If you are dissatisfied with the goods or services that you have purchased with your Account, and you have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Account for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
NOTICE: ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS SUBJECT TO ALL CLAIMS AND DEFENSES WHICH THE DEBTOR COULD ASSERT AGAINST THE SELLER OF
GOODS OR SERVICES OBTAINED PURSUANT HERETO OR WITH THE PROCEEDS HEREOF. RECOVERY HEREUNDER BY THE DEBTOR SHALL NOT EXCEED AMOUNTS PAID BY
THE DEBTOR HEREUNDER.

REVISED 10-01-2019 PRINTED 00-00-2019
© 1990-2019 Preferred Credit, Inc. ALL RIGHTS RESERVED. Duplication of this document without the copyright owner’s prior written consent is strictly prohibited.

CT17-R
Page 5 of 5

